                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: 106040009                                                                   Page 1 of 1



          This investigation was initiated after receiving a complaint from a Principal Investigator (PI)',
          who was working at NSF as a Program Director under an Interagency Personnel Assignment
          (IPA) from a ~niversity.~   The PI was in the process of transferring to another university when
          the Department Chairman claimed that equipment was missing from the PI'S laboratory and the
          PI had overspent NSF Grant Funds. The PI, who was assigned to NSF under an IPA, claimed
          that University had misspent the NSF Grant Funds and that all equipment was currently at the
          laboratory.

          An inventory was conducted and all equipment was located at the University Laboratory.
          Review of payroll summaries and account summaries for two NSF grants3identified that salary
          for a Post Doctorial Research Assistant had mistakenly been charged to a NSF grant4. The
          University credited the grant for salary and related benefit^.^

          Accordingly, this case is closed.
